U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

July 1, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Doncey Frank Boykin v. United States, No. 19-1264
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 30, 2020.
The government’s response is now due, after one extension, on July 6, 2020. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 5, 2020, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-1264
BOYKIN, DONCEY F.
USA

STEVEN JOHN WINKELMAN
COVINGTON & BURLING LLP
ONE CITYCENTER, 850 TENTH STREET NW
WASHINGTON, DC 20001
202-662-5097
SWINKELMAN@COV.COM

